No.

Supreme Court, U.S.
FILED

30-157,?
In The

APR 3 0 2021
OFFICE OF THE CLERK

|

Supreme Court of the United States
William “Will” Andrew Graven,
Plaintiff, Appellant, Petitioner,
v.
State of Arizona (but in-fact Defendants: [Former] Asst Attorney General
Michael Bailey; [Former] Chief, Criminal Division Don Conrad; [Former]
Chief Prosecutor Paul Ahler; Asst Attorney General Joe Waters; Criminal
Division Legal Administrator Lisa Rodriguez; and [Former] Chief, Special
Investigations Section Mark Perkovich; all 6 of whom the State prevented me
from Servins \which see later1; and the State by Respondeat superior liabilities
from documented criminal acts committed by these 6 in-fact Defendants),
Defendants, Appellees, Respondents.
______(please note use of plural, which see more about later)_______

PETITION FOR WRIT OF CERTORAI
But “in-factf a Petition for Summary Reversal of a long settled
issue/obvious error by the Court of Appeals for the Ninth Circuit.
(Citing: CSXTransp., Inc. v. Hensley; Allen v. Siebert; and Gonzales v. Thomas; all SCOTUS.)

Note: I believe a Reversal is appropriate as the issue here is long settled by
precedent, except for the District Court and Ninth Circuit who simply refused to
address the issue (that the injuries in my Complaint were caused by documented
Criminal Act by these 6 State Officials, and so my Complaint is in-fact asainst the
6 Officials. not the State [“documented” by their own records, which see late]).
William “Will” A. Graven, Petitioner, In Pro Se
2700 S. Woodlands Village Blvd.
Suite 300-251
Flagstaff, AZ 86001
928-890-8825

IIGINAL

1

QUESTION PRESENTED FOR WRIT OF CERTORAI
1.) It is long settled that a Complaint against State Officials is not a Complaint against the State,
but that it is in-fact against the Officials, e.g., as settled by Ex Parte Young; or Pennhurst
State Sch. v. Halderman, which cites Young in such a way as to add clarity to Young; and
more. Yes, this issue is settled...which is why I am simply asking for a Summary Reversal.
Background
In my instance/circumstances, I filed a Complaint against 6 Arizona State AGO Officials
for injuries they caused by a series of documented Criminal Acts they committed against me
as they “exonerated” the most powerful law firm in Arizona (see F1). I also named the State
as a Defendant for its Respondeat superior liabilities for the 6 Officials having injured me,
and it seems obvious that those 6 Officials pierced/voided the State’s immunity.
The law firm (Snell & Wilmer), is where the AGO’s then Chief Prosecutor’s son is an
attorney...and The Firm is AG Mark Bmovich’s political sponsor (Snell was working for
the AGO during relevant times these 6 in-fact Defendants committed these Criminal Acts).
Coincidentally, I’m sure, is that Snell is the Governor’s personal, and gubernatorial law
firm; and the Governor’s in-house chief counsel is from Snell; and etc (as I am sure it is
another coincidence the Governor wouldn’t act to help me [which see more about later]).
But as the Arizona AGO does not allow their Officials being Served Complaints at their
offices...not even for official acts committed while on the job...and, as they are AGO
Officials, their home addresses are hidden from the public...! was blocked (rather, my
licensed process server was blocked) from being able to Serve/even find these 6 Officials
away from their offices (which see more detailfor later).
Isn 7 the Arizona AGO clever, as they prevent its Citizens from access to offending AGO
Officials...thereby forcing its Citizens to sue the State...so the State can then hide behind
the 11th Amendment...isn’t this a violation of Due Process, if not a fraud scheme?
I even tried Effective Service, as these 6 Officials would have known the State and AGO had
been Served (which see more detail for later). But the District Court denied my Motion.
Therefore, I had to Amend the 6 Officials out of my first Complaint (see F on pg li), leaving
only the State for its Respondeat superior liabilities...but my Complaint is in-fact against
the 6 Officials who are the ones who injured me by their documented Criminal Acts...so I
said to the District Court Judge in this Complaint that if I needed to Amend the 6 back in,
that he please issue an Order for the US Marshalls to Serve the 6 as no one but the Marshalls
will be able find them...but my Judge did not respond (which see more detail for later).
It is clear the injuries in my Complaint were caused by and is in-fact asainst these 6
Officials, and not the State itself (exceptfor the State’s Respondeat superior liabilities).

11

I do not understand why the Ninth Circuit allowed these 6 State Officials to benefit from
Arizona State immunity, as the Ninth itself has made it clear that those that violate the
law (or even just act incompetently!) do not have immunity. See Lanuza v. Love, 1535408 - US 9th Circuit (that egregious behavior is reason to pierce/void immunity):
“The panel affirmed the district court’s order denying qualified immunity to ICE
Assistant Chief Counsel Jonathan Love because qualified immunity was not meant to
protect those who are “plainly incompetent or those who knowingly violate the law.”
Neither the Ninth Circuit panel nor the District Court has ever said a single word about
these 6 Officials’ documented Criminal Acts...although I have pleaded and begged for
them to confront the Officials’ acts (documented by the Officials’ own records).
Even the Arizona Supreme Court has riled that the State and its Officials should be
held liable/not benefitfrom immunity when the State or its Officials commit
questionable acts beyond basic governmentfunctions or established public policy. See
Ryan v. State, (1982) 134 Ariz. 308, 656 P.2d 597:
“Employing the spirit of the Stone decision, we propose to endorse the use of
governmental immunity as a defense only when its application is necessary to avoid a
severe hampering of a governmental function or thwarting of established public policy.
Otherwise, the state and its agents will be subject to the same tort law as private
citizens.”
I cannot help but wonder about the cliche (?) of the “deep state”...is that why our Courts
are avoiding confronting documented Criminal Acts by Arizona AGO Officials?
F1: See the AGO’s Chief Prosecutor Paul Ahler give notice he was conflicted with the
prosecution/continuing investigation of the Snell Case (Ex 1 here pg 2 Refs 1/2); see him
then be Screened from all of my cases by his boss Don Conrad (Ex 1 here pg 1 at Ref 3);
but then see Ahler and Conrad commit multiple Criminal Acts as they exonerated Ahler’s
son’s firm and 3 of his son’s fellow attorneys (Ex 2 here pg 5 at Refs 1/2) (for a narrative
of these first Criminal Acts, see Cmplnt Par’s 4; 14-41, Ex 22 here]); and see Conrad/Ahler
(all Criminal Acts are seen/proven by AGO records) be assisted by the 4 other Officials as
they committed “Supporting Acts” to further exonerate the Snell Parties and cover their (the
6 AGO Officials’) own criminal tracks (Ex 3 here [which see more detail for later]).
F_: Please note that the State of Arizona is listed as “Defendants; and/or Appellees and/or
Respondents,” plural...the plural is leftover from when the State and all 6 AGO Officials
were named as Defendants, prior to my being forced to Amend the 6 Officials out my
Complaint as the State prevented me from Serving them, and I left the plural form of
“Defendants” et al to, in part, reflect the State’s Respondeat superior liabilities.

Ill

LIST OF PARTIES
1.) William “Will” A. Graven, Plaintiff, Appellant, and Petitioner;
2.) State of Arizona (by Respondeat superior liability from the below 6 Arizona AGO
Officials; and by the State’s Immunity have been pierced/voided by the Criminal
Acts of the below 6 AGO Officials), Defendants; Appellees; and Respondents;
3.) (Former) Asst Attorney General and Chief of Staff, Michael Bailey, AGO Official;
4.) (Former) Chief of the Arizona Attorney General’s Office Criminal Division, Donald
Conrad, AGO Official;
5.) (Former) Chief Prosecutor of the Arizona Attorney General’s Office for the
Criminal Division, Paul Ahler, AGO Official;
6.) Asst Arizona Attorney General Joe Waters, AGO Official;
7.) Arizona Attorney General’s Office Criminal Division Legal Administrator, Lisa
Rodriguez, AGO Official; and
8.) (Former) Chief of the Special Investigations Section of the Arizona Attorney
General’s Office Criminal Division, Mark Perkovich, AGO Official.

IV

TABLE OF CONTENTS
QUESTION PRESENTED
LIST OF PARTIES

in

TABLE OF CONTENTS

IV

» TABLE OF AUTHORITIES
Vr

i and ii

v through viii

OPINIONS BELOW

1 through 3

JURISDICTION......

4

V CONSTITUTIONAL PROVISIONS, STATUTE AND REGULATIONS AT ISSUE......5

C^ STATEMENT OF THE CASE.......
V A. Facts Giving Rise To This Case..
X B. The District Court Proceedings....
^ C. The Appellate Court Proceedings
D. Foot notes...................................

6 through 11
5
6

REASONS WHY MY PETITION SHOULD BE GRANTED

7

11
12

Summary Reversal is warranted because without this Supreme Court quickly/clearly
acting to Reverse, State Officials in the Ninth Circuit territory will feel/leam they can
commit criminal acts while in their Official Positions, by first simply creating “rules”
that prevent State Citizens from Serving State Officials at their Offices...then hiding
those Officials’ home addresses, and thereby, in-effect, be protected from
litigation...and be prosecution proof; State’s will have no motivation to monitor their
officials’ behaviors; Ex Parte Young et al will be clouded if not voided; and more.
CONCLUSION

13

EXHIBITS

14

V

TABLE OF AUTHORITIES CASES
Exceptions to State Immunity by the 11th Amendment US Supreme Court:
Ex Parte Young. 209 U.S. 123 (1908)

throughout

Ex parte Young established that a suit challenging the Federal Constitutionality of a state official’s
action is not one against the State. Pp. 465 U.S. 97-103.
Pennhurst State Sch. v. Halderman, 465 U.S. 89 (1984)

throughout

The Court in Ex parte Young, supra, recognized an important exception to this general
rule: a suit challenging the federal constitutionality of a state official's action is not one
against the State. Pp. 465 U. S. 97-103.
Exceptions to State Immunity by the 11th Amendment, Ninth Circuit:
Lanuza v. Love, 15-35408 - US 9th Circuit (that egregious behavior is yet reason to
throughout
pierce immunity)
“The panel affirmed the district court’s order denying qualified immunity to ICE
Assistant Chief Counsel Jonathan Love because qualified immunity was not meant to
protect those who are “plainly incompetent or those who knowingly violate the law.”
Exceptions to State Immunity by the 11th Amendment, Arizona:
Ryan v. State, (1982) 134 Ariz. 308, 656 P.2d 597, the Arizona Supreme Court
reasserted its earlier position (which State entities and officials had found ways to
circumvent/abuse) that the use of immunity should be limited........................... throughout
“Employing the spirit of the Stone decision, we propose to endorse the use of
governmental immunity as a defense only when its application is necessary to avoid a
severe hampering of a governmental function or thwarting of established public
policy. Otherwise, the state and its agents will be subject to the same tort law as
private citizens.”
Cases: Due Process Cases US:
Daniels v. Williams, 474 U.S. 327, 331, 106 S.Ct. 662, 88 L.Ed.2d 662 (1986).... throughout
“The Due Process Clause was intended to secure an individual from an abuse of power
by government officials.” (As happened to me! Icomment by Petitioner1)

VI

Kinsella v. United States ex rel. Singleton, 361 U.S. 234, 80 S. Ct. 297,
4 L. Ed. 2d 268(1960)..................................................................................

throughout

"The denial of due process is a denial of'fundamental fairness, shocking to the universal
sense of justice."'
Due Process in Arizona:
State v Latigue. 502 P.2d 1340 (Ariz. 1972) This case well established the threshold
for violating Due Process in Arizona, and steps that need to be taken to avoid such
throughout
violations
"Ordinarily knowledge or information held by any one member of the County Attorney's
office is tantamount to knowledge of all such members, and that public confidence in our
judicial system may be undermined if the appearance of evil, as well as the evil itself, is
not avoided."
State v. Melendez, 834 P.2d 154
(Ariz. 1992).................................

throughout

“The touchstone of due process under both the Arizona and federal constitutions is
fundamental fairness.”
Oshrin v. Coulter. 142 Ariz. 109, 111, 688 P.2d 1001, 1003 (1984)

throughout

"[T]he denial of due process is a denial of'fundamental fairness, shocking to the
universal sense of justice."'
The Doctrine of Respondeat superior:
Let the master answer.

throughout

MISCELLANEOUS
Arizona Agency Handbook, Chapter 8, Conflict of Interest.
{see Ex 4)
Arizona Revised Statutes Title 38. Public Officers and Employees § 38-501
through § 38-511...................................................................................................
{see Ex 5)

throughout

throughout

Vll

Criminal Facilitation under
13-1004. Facilitation: classification
A. A person commits facilitation if, acting with knowledge that another person is
committing or intends to commit an offense, the person knowingly provides the other
person with means or opportunity for the commission of the offense.
Criminal conflict of interest
38-510. Penalties
A. A person who:
1. Intentionally or knowingly violates any provision of sections 38-503 through 38-505 is
guilty of a class 6 felony.
Forgery
13-2002. Forgery: classification
A. A person commits forgery if, with intent to defraud, the person:
1. Falsely makes, completes or alters a written instrument; or
Obstruction of Justice (what Arizona calls: Obstructing...)
13-2409. Obstructing criminal investigations or prosecutions: classification
A person who knowingly attempts by means of bribery, misrepresentation, intimidation
or force or threats of force to obstruct, delay or prevent the communication of
information or testimony relating to a violation of any criminal statute to a peace officer,
magistrate, prosecutor or grand jury or who knowingly injures another in his person or
property on account of the giving by the latter or by any other person of any such
information or testimony to a peace officer, magistrate, prosecutor or grand jury is guilty
of a class 5 felony, except that it is a class 3 felony if the person commits the offense with
the intent to promote, further or assist a criminal street gang.
CONSTITUTION FOR THE UNITED SATES

throughout

Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war or public danger; nor shall
any person be subject for the same offense to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.

Vlll

Amendment XIV
All persons bom or naturalized in the United States and subject to the jurisdiction thereof,
are citizens of the United States and of the State wherein they reside. No State shall make
or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal protection of
the laws.
Amendment XI
The Judicial power of the United States shall not be construed to extend to any suit in law
or equity, commenced or prosecuted against one of the United States by Citizens of
another State, or by Citizens or Subjects of any Foreign State.
Countless Federal Laws

throughout

Constitution for the State of Arizona.
(Particularly for Due Process)

throughout

Countless Arizona State Laws

throughout

1
OPINIONS BELOW
My Complaint is for my injuries by the documented Criminal and Supporting Acts of 6
Arizona AGO Officials (documented by their own records) who created a straightforward
liability by: their being the in-fact Defendants (although they cleverly avoided Service); by
Respondeat superior liabilities for the State; and by the State’s immunity having been
pierced/voided through their acts; when they broke multiple laws to “exonerate” the most
powerful law firm (Snell & Wilmer) in Arizona. Noting, the 6 Officials’ “Supporting Acts”
included more efforts to exonerate Snell, and to cover their own criminal tracks (the coverup is often worse than the act it was meant to cover...here is an example of that axiom).
In Ex 1 here pg 2 at Ref’s 1 and 2 see AGO Official Ahler give Notice that he was
Conflicted with the Snell Case prosecution; then see him be Screened Ex 1 pg 2 at Ref
3, but then forge and sign a Case Charging Form (having forged-out his son’s law
firm’s name, and 3 of his son’s fellow attorneys name), for a case he was specifically
Screenedfrom Ex 2 pg 5 at Ref 1, as he and the party who Screened him, his boss, Don
Conrad (Criminal Division Chief], “exonerated” his (Ahler’s) son’s law firm, and 3 of
his son’s fellow attorneys. Ahler’s taking part in this Form is Criminal Conflict of
Interest (ARS 38-510[l][A]), and Conrad by enabling Ahler to commit Criminal
Conflict of Interest (Ex 2 pg 5 at Ref 2) committed Criminal Facilitation (ARS 131004), amongst other criminal acts by Ahler and Conrad, and the 4 other AGO Officials
who “assisted” Ahler and Conrad (all seen by their own records).
In spite of my Complaint being plainly for injuries caused by the Criminal Acts of these 6
AGO Officials, they “defended” themselves by claiming/lying to the Court that my
Complaint was for their “failure” or simply “declined” to charge the Snell Parties (Ex 6,
throughout at double underline) whom I “believed” should be charged or “felt” or
“wanted” charged (Ex 7 pgs 1/2 at underline) should have been charged with crimes...but it
does not say any of this anywhere in my Complaint. Noting, the Snell Parties had been
approved for criminal charging by the just previous Attorney General, Tom Home...but my
Complaint is not for the Snell Parties’ acts...my Complaint is the AGO Officials’ crimes.
But, unbelievably, in dismissing my case, the District Court Judge quoted Defendants
rather than me (Ex 8 pg 1 at Ref 1):
Background
Plaintiff brought this cause of action against the State of Arizona for monetary damages
based on the failure to indict Snell & Wilmer. a local law firm, and some of its partners for
alleged criminal acts." (Bold underline by Petitioner.)
“I.

District Court Judge Logan, although required for a Motion to Dismiss to view my
Complaint in the light moat favorable to me, never said a word about what my Complaint

2
actually says or the AGO’s internals records prove, which I produced, and that document
the 6 Officials ’ Criminal Acts (Noting: Judge Logan is a former associate with 4 of the 6
Officials, and that he was a then current associate with 1 of the 6).
Judge Logan said nothing of records that documented 6 AGO Officials’ Criminal Acts.
Judge Logan said nothing of exceptions to the 11th Amendment.
Judge Logan said nothing of the State’s Respondeat superior liabilities to me.
Judge Logan said nothing of the State’s preventing me from Serving the 6 AGO Officials.
So_Judge Logan’s decision was based on the wrons facts...he then also ignored my Motion
for Reconsideration (Ex 9 pg 1 at Ref 1) when I (figuratively) screamed at him that my
Complaint was not for the Defendants’ failure to charge parties “/ feW should be charged:
“No your Honor...my Complaint is not about the State’s “failure” (which is what
Defendants claimed) to indict Snell & Wilmer and some of its partners.
My Complaint is about Defendants’ documented criminal acts (as seen in
Defendants’ own internal documents) committed when “exonerating” the approved-forindictment Snell & Wilmer Parties. Such a substantive issue as Defendants’ criminal acts
requires the Court’s addressing those acts.”
Judge Logan still said nothing of what my Complaint says or the records that documented
6 AGO Officials’ Criminal Acts; so he denied my Motion for Reconsideration (Ex 10).
I filed an Appeal with the Ninth Circuit Court of Appeals (Exll pg 2 Sec III), making it
clear from the beginning what my Appeal was about:
“III. ISSUES TO BE APPEALED
Issues to be Appealed (1,2, and 3 are covered by the just above described Motion)
include:
1.) Did the District Court error in adjudicating my Complaint based on
Defendants’ mischaracterization (by fraud on the Court, which I highlighted)
of my Complaint rather than the actual content, allegations, and Exhibits of
my Complaint (i.e., day v night)?
2.) Did the District Court error in not considering Defendants’ documented
criminal acts (by Defendants’ own internal documents)?
3.) Did the District Court error in seeing the 11th Amendment as an
impenetrable shield that even protects multiple State players who were
documented by their own internal documents as having committed multiple

3
criminal acts, which included multiple violations of the US and Arizona”
Constitutions and Federal and Arizona Civil and Criminal Statutes?”
For my Appeal at the Ninth Circuit, in my Opening Brief, I asked for a Standard of
Review of the Facts (Exl2, pg 3).
The Appeals Court also ignored/refused to examine the 6 AGO Officials’ documented
criminal acts.
They refused to give me a Standard of Review of the Facts...they merely Affirmed
(Exl3).
I filed a Motion for Reconsideration or Alternatively an En Banc Review (Ex 14).
I raised hell that they (the Ninth) had not given me a Review of the Facts... asking if they or
this Court recognized exceptions to the 11th Amendment...if they recognized the Doctrine of
Respondeat superior...or if they recognized violations of Due Process (Ex 14, and other).
"I. DOES THIS COURT...?
Does this Court, including the US Supreme Court, recognize exceptions to the 11th
Amendment?
Does this Court, including the US Supreme Court, recognize the Doctrine of Respondeat
superior?
Does this Court, including the US Supreme Court, recognize violations of Due Process?
Does this Court, including the US Supreme Court, not recognize such cleverness to prevent
citizens from seeking justice and restitution from errant state officials, as a ploy to force
those citizens to then sue the state, so the state can thereby hide behind the 11th Amendment?
Does this Court, including the US Supreme Court, not recognize such a as a violation of Due
Process, if not a fraud scheme?
Does this Court, including the US Supreme Court, allow states and their officials to commit
acts against citizens that violate the US Constitution and Federal Law? (Does the 11th
Amendment make that all ok?)
Does this Court, including the US Supreme Court, accept that the 11th Amendment is an
impenetrable shield from behind which state players can commit corrupt acts, and be
protected by 11th Amendment, and friendly state courts?
The Ninth Circuit denied my Motion for Reconsideration or Alternatively an En Banc
Review (Ex 15).

4
I respectfully ask this respected Supreme Court to remind the Ninth Circuit and District
Court Judge Logan that a Complaint against 6 State Officials (even after the State forced
me to Amend my Complaint by preventing me from Serving the 6 Officials) for their own
acts is not a Complaint against the State...but that it is against the Officials.
I also respectfully ask this respected Supreme Court to remind the Ninth Circuit and
District Court Judge Logan that the Doctrine of Respondeat superior is still valid in this
great Country and that 6 Arizona State AGO Officials acting in concert with one another to
commit multiple Criminal Acts is more than sufficient to create Respondeat superior
liabilities for the State (particularly as the Criminal Acts by these 6 AGO Officials were
made very well known to the Governor and State Legislature but all in the Arizona
Government refused to act [which see more about later])...and that documented Criminal
Acts by 6 senior AGO Officials is sufficient to pierce/void the State’s immunity.

4

JURISDICTION
I filed my Complaint in the US District Court for Arizona for injuries I received when 6
Arizona Attorney Officials committed multiple criminal acts against me.
These 6 Officials committed multiple violations of Due Process under the 5 th and 14th
Amendments to the US Constitutions; they violated Equal Protection under the 14th
Amendment; and they violated multiple Federal Laws such as Civil Rights Laws, and they
acted against countless Federal Court case law precedents.
The US District Court for Arizona dismissed (Ex 8) my Complaint by quoting AGO
Officials, but saying nothing about what my Complaint actually says, thereby not reviewing
my Complaint, allegations, and Exhibits, in the light most favorable to me. The District Court
also mentioned the 11 Amendment for State immunity, but said nothing about my
Complaint having actually been against State Officials, and not the State, nor Respondeat
superior liabilities created by 6 AGO Officials acting in concert.
I filed a Motion for Reconsideration with the District Court (Ex 9), which was quickly denied
(Ex 10).
I filed an Appeal with the Ninth Circuit Court of Appeals (Ex 11), asking for a Standard of
Review of the Facts (Ex 12).
The Ninth Circuit gave me no Factual Review, they merely Affirmed (Ex 13).
I filed a Motion for Reconsideration or Alternatively a En Banc Review (Ex 14), but that was
denied (Ex 15 [dated: 4/20/21]).
All dates and deadlines have been met.
The Ninth Circuit seemed to have no issue in exercising judgment over my Appeal.
The jurisdiction of this Court to review the Judgment of the Ninth Circuit is invoked
under 28 U.S.C. § 1254(1).

5

CONSTITUTIONAL PROVISIONS, STATUTES AND
POLICIES AT ISSUE
Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising in the
land or naval forces, or in the militia, when in actual service in time of war or
public danger; nor shall any person be subject for the same offense to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.
Amendment XIV
All persons bom or naturalized in the United States and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
Amendment XI
The Judicial power of the United States shall not be construed to extend to any suit in law
or equity, commenced or prosecuted against one of the United States by Citizens of
another State, or by Citizens or Subjects of any Foreign State.

Ex Parte Young; and
Pennhurst State Sch. v. Halderman (which cites Young in such a way as to add clarity
to Young;), and more...
Doctrine of Respondeat superior

6
STATEMENT OF THE CASE
A. Facts Giving Rise To This Case:
On June 26, 2019,1 filed this complaint in US District Court for the District of Arizona.
The case was first assigned to recently appointed Judge Susan M. Bmovich, but as her
husband is the Arizona Attorney General, and my case was/is in-fact against his then 6 top
Officials, and the State for its Respondeat superior liabilities from the documented
criminal by these 6 Officials, my case was reassigned to Judge Stephen P. Logan (whom I
was to later learn is a former associate with 4 of these 6 Officials, and was a then current
associate with 1 of the 6, the then US Attorney For Arizona [named as a Defendant for acts
while he committed while previously Asst AG and Chief of Staff at the Az AGO]).
This was the second time that I had sought Justice in a US Federal Court for my injuries from
these 6 Officials’ Criminal Acts, the first time was 4/27/16 (Ex 16). My first effort was a
futile effort as the AGO had fired and threatened my two lead Special Agent Investigators
with being put on the Brady list if they discussed my cases with anyone (and they transferred
2 others Agents from Special Investigations); and while the AGO provided substantial
materials/evidence to me (Ex 17), it was clear to me they were withholding the most
probative records, which I had myself seen over the 4 years my cases being pursued by the
AGO under AG Tom Home...but the AGO under Mark Bmovich would not respond to my
requests for further records, so my first effort was futile (“Jane/John Doe’s” later became, by
AGO records, Lisa Rodriguez and Mark Perkovich).
1 will mention here that AGO played games with Service, including, the AGO would not
Waive Service (violating ARCP Rules 4.1/4.2), or allow Service by a licensed process
server for Officials named as Officials in my Complaint, for acts committed while on the
job, as they claimed that even when Officials are named as Defendants for acts committed
while on the job, they must be Served outside of the AGO. Due to the AGO playing these
games with Service, I asked that US Court for Effective Service (Ex 18 pg 1 at Ref 1 and pg
2 at Ref 2) (as I did in State Court, Ex 19 pg 2 at Refs 1 and Ref 2. Please see CV201601249, Dkt Entries 8 and 9 on 5/18/16, Ex 20 pg 1 at Refs 1/2). My Motion for Effective
Service was denied. So, as these 6 Officials are lons-time law enforcement officials, their
personal information, e.g., home addresses, are not publicly available, so I also had to
amend that Complaint to remove their names (Motion denied. Ex 21, pg 2 at Ref 1).
Isn 7 the Arizona AGO clever, as they prevent its Citizens from accessing offending AGO
Officials...thereby forcing its Citizens to sue the State...so the State can then hide behind the
11th Amendment...isn’t this a violation ofDue Process, if not a fraud scheme?

7
After I Amended the 6 Officials out, this left only the State for its Respondeat superior
liabilities...but my Complaint was/is still in-fact against the 6 Officials.
I later obtained the most probative records I knew were missing/being withheld, via
“alternate sources.” Those Alternate Sources would file a Public Records Request (PRR”)
with the AGO, and then upon receipt of the response to a given PRR, the Alternate Source
would forward me what they had received (see Ex 22 Complaint pg 1, Par’s 1-3 and 59.).
That is where I found the records that show/prove (at least to a preponderance for my civil
complaint) these 6 AGO Officials injured me by committing multiple Criminal Acts. So I
refilled this Complaint.
In this Complaint, I explained to Jude Logan what I had gone through twice before (in State
Court also) in trying to Serve the 6 AGO Defendants, saying (Ex 23 Sec III pg 5 at Ref 1):
“If I have errored in naming the State, as a whole, Defendants, by Respondeat
Superior, I ask the Court to allow me to take leave to amend to add individual names
(particularly as related to 42 USC Sec 1983).
If the Court Orders me to Take Leave to Amend in individual’s names, I ask the Court
to include in its Order that US Marshalls Serve the individuals, as no one but a Marshall will
be able to find and Serve such State Officials.”
With this Complaint, I was/am able to clearly prove that it was/is for injuries from
documented Criminal and Supporting Acts by 6 Arizona Attorney General Officials (see F1
pg 11) who created a Respondeat superior liability for the State of Arizona when they broke
multiple laws to “exonerate” the most powerful law firm (Snell & Wilmer) in Arizona (as
documented by the AGO’s own records), noting that they also committed what I have called
“Supporting Acts” which included more efforts to exonerate the Snell Parties, and to cover
their (the 6 AGO Parties) own criminal tracks. See Amnd Cmplnt (DC Dkt No 9) Par’s 4
and 14-41 (Opn Brf Ex 1 [Ex 22 here]), Ex’s 6/7 (Opn Brf Ex’s 2/3 [Ex’s 1/2 here]); Cmplnt
Par’s 42-49 (Opn Brf Ex 1 [Ex 22 here]), Ex’s 10-16 (Opn Brf Ex 4 [Ex 24 here]); and
Supporting Acts (Cmplnt Sec II-H [Ex 25 here], and Opn Brf pg 7 [Ex 26 here).
One of the 6 Officials, Paul Ahler, who was the then AGO’s Chief Prosecutor, has a son who
is an attorney with Snell, which is why Ahler gave Notice, (Ex 1 here pg 2 at Ref 1 [as
required by law]) and was Screened (also as required by law (again, see Ex 1 here pg 2 at
Ref 3), and Snell is AG Bmovich’s personal political sponsor (Snell was working for the
AGO at relevant times [noting the Governor’s relationship with Snell as described earlier]).
For a quick “can’t miss/ in your face” example of the 6 Officials’ Criminal Acts, see page 1
of my Emergency Motion for a Hearing (CoA Dkt No 16 [Ex 27 here), which also appears
as Ex 1 to my 2 pg Reply Brief (CoA Dkt No 26 [Ex 28 here pg 5]).

8
Supporting Acts the 6 Officials committed (again, see Cmplnt Sec II-H [Ex 25 here], and Opn
Brf pg 7 [Ex 26 here) included:
- firing and threatening the lead Special Agents on all of my cases;
- closing all of the investigations of my various cases (Ex 29 here);
- dismissing cases of convicted criminals (who were to testify against the Snell Parties) (Ex
30 here pgs 2, 3, and 4); and
- removing my name as the victim of my cases (after 4 years of being the victim) (Ex 31
here), thereby stopping all restitution payments to me, as they sought to starve into ceasing
my efforts.
In review:
In Ex 1 here pg 2 at Ref 1 see AGO Official Party Paul Ahler give notice that he was
Conflicted with the Snell Case prosecution and continuing investigation (Ex 1 here pg 2 at
Ref 2); see him be Screened at Ref 3, but he then forged and signed the Case Charging
Form (with Don Conrad’s help) for the Snell Case Crimes (again, see Ex 2 here pg 5 at
Ref 1 [having removed/forged-out his son’s law firm’s name, and 3 of his son’s fellow
attorneys name]), for a case he was specifically Screened from, as he and the party who
Screened him (again Ex 1 here pg 5 at Ref 2), his boss, Don Conrad (Chief, Criminal
Division], “exonerate” his (Ahler’s) son’s law firm, and 3 of his son’s fellow attorneys.
Ahler’s taking part in this Form is Criminal Conflict of Interest (ARS 38-510[1][A]), and
Conrad, by enabling Ahler to commit Criminal Conflict of Interest, committed Criminal
Facilitation (ARS 13-1004), amongst other criminal acts by Ahler and Conrad.
And again, please see the Supporting Acts (again, Ex’s 25 and 26 here), committed by
Conrad and Ahler and the 4 other AGO Officials who assisted Ahler and Conrad (all seen
by their own records).
B. The District Court Proceedings:
The Defendants responded to my Complaint by filing a Motion to Dismiss claiming that my
Complaint (see F2pg 11) was for their “failure” (Ex 6 here throughout) to charge someone I
“felt” or “believed” (Ex 7 here at pgs 1/2 at underline) should be charged, and they cited the
11th Amendment...which is meaningless here, as they did not use my Complaint as written.
I filed a Response to their Motion to Dismiss making it ever more clear that my Complaint
was for the 6 AGO Officials’ Criminal Acts (Ex 23 Sec’s I, II, and IV), and I explained I had
filed my Complaint against the State as “Defendants” as I was forced to amend out (again,
Ex 23 here pg 5 at Ref 1), and then not include the 6 individual AGO Officials as
Defendants, as the AGO does not allow Service of their Officials at their office, even for acts
they committed while on the job...and as their home addresses as hidden from the public, I
could not find their homes to Serve them at their residences. So I asked the Judge, if he

9
felt these individuals must be included, that he allow me to Amend them in, and that he
Order the US Marshalls to serve them at their homes, as no one but the US Marshalls could
find and serve them at their residences (again, Ex 23 here pg 5 at Ref 1).
I also explained that my Complaint was one big Respondeat superior (again, Ex 23 here pg 4
Sec III).
The District Court Judge, dismissed my case with an opening line which came directly
from the Defendants (Ex 8, pg 1 at Ref 1):
Background
Plaintiff brought this cause of action against the State of Arizona for monetary damages
based on the failure to indict Snell & Wilmer. a local law firm, and some of its partners for
alleged criminal acts.” (Bold underline by Petitioner [again, see F2].)
“I.

Clearly, the District Court Judge did not view my Complaint in the most favorable light...as
he never even mentioned what my Complaint actually says...not once did that Judge say
anything of my allegations of the documented Criminal Acts by the 6 AGO Officials.
I filed a Motion for Reconsideration, figuratively screaming at Judge Logan, being as
emphatic as I could, without being offensive, saying (Ex 9 pg 1 at Ref 1):
“No your Honor...my Complaint is not about the State’s “failure” (which is what
Defendants claimed) to indict Snell & Wilmer and some of its partners.
My Complaint is about Defendants’ documented criminal acts (as seen in
Defendants’ own internal documents) committed when “exonerating” the approved-forindictment Snell & Wilmer Parties. Such a substantive issue as Defendants’ criminal acts
requires the Court’s addressing those acts.”
My Motion for Reconsideration was quickly denied, as Judge Logan passed on the AGO
Officials’ documented Criminal Acts; he passed on Respondeat superior, and he passed on
exceptions to the 11th Amendment (which is partly why Judge Logan ignored the
Officials Criminal Acts: because those acts would be exceptions to the 11th Amendment).
C. The Appellate Court Proceedings:
I filed an Appeal with the Ninth Circuit (Ex 11), asking for a Standard of Review of the
Facts (Ex 12 pg 3), as I was certain if the Ninth Circuit reviewed the facts of the AGO
Officials’ criminal acts, the Ninth Circuit would, at minimum, remand my Complaint, telling
the District Court to consider the documented Criminal Acts of the 6 AGO Officials.
The Ninth Circuit merely Affirmed, with no Review of the Facts (Ex 13).

10
I filed a Motion for Reconsideration, followed by several additional pleadings (see Ex’s
14, and then 32, 33, 34, 35, 36, 37, and 38) in which I put the 6 AGO Officials criminal
acts squarely in the faces of the Ninth Circuit panel.
Again, the Ninth Circuit merely denied my Motion for Reconsideration, without any
review or even mention of the facts; that the Doctrine of Respondeat superior made the
State liable in spite of the 11th Amendment; that there are exceptions to the 11th
Amendment; or that it is a violation of Due process to prevent an aggrieved being able to
serve offending parties (see pg 1 and the top of pg 2 of my Motion for Reconsideration [Ex
14]).
So, apparently, the Ninth Circuit Court of Appeals does not accept any exceptions to the
11 Amendment, not even for documented Criminal Acts by 6 State AGO Officials...nor
do they follow Ex Parte Young, or their own ruling that egregious behavior is yet reason to
pierce/void immunity in Lanuza v Love (Ex 39 here pg 4 at Ref 1):
“The panel affirmed the district court’s order denying qualified immunity to ICE Assistant
Chief Counsel Jonathan Love because qualified immunity was not meant to protect those
who are “plainly incompetent or those who knowingly violate the law.”
And the Ninth Circuit does not accept the Doctrine of Respondeat superior (isn’t 6 AGO
Officials enough to create a Respondeat superior for the State? If not 6, how many does it
take?)
Nor does the Ninth Circuit even believe in violations of Due Process (e.g., the AGO
preventing me from Serving Officials for acts they committed while on the job, while also
hiding their homes addresses).
From where I stand, it appears the Ninth Circuit supported District Court Judge Logan,
against the facts/evidence, and the Ninth ignored that Judge Logan is a former associate of
4 of the 6 AGO Officials, and that 1 of the 6 was a then current associate, the then US
Attorney for Arizona (who had committed the documented Criminal Acts when he was
previously Asst AG and Chief of Staff back at the Arizona AGO).
Therefore, I ask this Supreme Court for Summary Reversal.

11
D. Footnotes:
Footnote 1: For an overview of the AGO Officials ’ Criminal and Supporting Acts, see
Amndd Cmplnt (DC Dkt No 9) Par’s 4 and 14-41 (Opnng Brf Ex 1, Ex 1 here), Cmplnt
Ex’s 6 and 7 (Opnng Brf Ex’s 2/3 [for your convenience, and limiting Exhibits here, see pg
1 of Ex 4 below, and Ex’s 1 and 2 attached to it]); Cmplnt Par’s 42-49 (Opnng Brf Ex 1,
Ex 1 here), Ex’s 10-16 (Opnng Brf Ex 4); and Supporting Acts (Cmplnt Sec II-H, Ex 2
here; Opnng Brf pg 7; Ex 25 here; or Ex 26 here Sec VI-B] [see certain Supporting Acts
documented in Cmplnt Ex’s 10-16 or Opnng Brf Ex 4]). For a quick “can’t miss/ in your
face” example of AGO Officials’ Criminal Acts, see page 1 of my Emergency Mtn for a
Hrng (CoA Dkt No 16, Ex 4 here), which also appears as Ex 1 to my 2 page Reply Brf
(CoA Dkt No 26, Ex 5 here).
Footnote 2: As described in Footnote 1, my Complaint is for injuries I received from AGO
Officials’ Criminal and Supporting Acts...but the AGO Officials used their credibility as
Az AGO Officials and swore my Complaint was for their not charging the Snell
Parties...but it does not say that anywhere in my Complaint...the district court ruled by
AGO Officials’ fraudulent claims saying that as my Complaint was for the State’s failure
to charge the Snell Parties, and there is no such cause of action as that (failing to charge to
someone), he was dismissing my Complaint...he also added a rote recital of the 11 th
Amendment...failing to note exceptions to the 11th Amendment...and failing to consider
Respondeat superior liabilities for the State by these 6 AGO Officials.
But as my Complaint is not for what the district court Judee ruled by (the State’s failure
to charge the Snell Parties), he excused the AGO Officials for their documented Criminal
and Supporting Acts, in part by ignoring their Criminal and Supporting Acts (never
mentioning such), and in part by reciting the 11th Amendment (but failing to discuss
exceptions to the 11th).
But as the Judge dismissed...not by what my Compliant is actually about, he missed the
Doctrine of Respondeat superior and using well known exceptions to the 11 th Amendment,
and thereby consciously supported AGO Officials’ criminality and corruption.

12
REASONS WHY SUMMARY REVERSAL SHOULD BE
GRANTED
There is no question of law in my Petition...the issue is that the District Court and
Ninth Circuit Court of Appeals refused to consider, let alone even acknowledge, that 6
AGO Officials injured me by their documented Criminal Acts.
Summary Reversal is warranted because without this Supreme Court quickly/clearly
acting to Reverse, State Officials in the Ninth Circuit territory will feel/leam they can
commit criminal acts while in their Official Positions, by first simply creating “rules”
that prevent State Citizens from Serving State Officials at their Offices...then hiding
those Officials’ home addresses, and thereby, in-effect, be protected from
litigation...and be prosecution proof; State’s will have no motivation to monitor their
officials’ behaviors; Ex Parte Young et al will be clouded if not voided; and more.
This Court’s own summary reversal precedents makes clear that Summary Reversal is
for circumstances like this one that do not decide any new or unanswered question of
law, but simply corrects a lower court’s demonstrably erroneous application of federal
law or binding precedent. See CSX Transp., Inc. v. Hensley, 556 U.S. 838, 840 (2009)
(summarily reversing where court of appeals committed “clear error” when applying a
prior decision of the Supreme Court); Allen v. Siebert, 552 U.S. 3, 7 (2007) (summarily
reversing where prior decision of Supreme Court “precludefd]” the “Court of Appeals’
approach”); Gonzales v. Thomas, 547 U.S. 183, 185 (2006) (summarily reversing
because error was “obvious” in light of binding precedent).
My circumstances are what Summary Reversal was intended to quickly cure.

Noting, even the Ninth Circuit has made it clear in Lanuza v Love that egregious
behavior is yet reason to pierce immunity:
“The panel affirmed the district court’s order denying qualified immunity to ICE
Assistant Chief Counsel Jonathan Love because qualified immunity was not meant to
protect those who are “plainly incompetent or those who knowingly violate the law.”
Governmental officials, be they Federal, State, or local, are not shielded from
egregious acts by the 11th Amendment.

The United States Courts excluding state based violations of due process from
Federal based violations of due process simply makes no sense, and is confusing.
A violation of due process at the state level should automatically be a violation of
due process at the Federal level (as should a violation at the Federal level
automatically be a violation at the state level [as the US Constitution is the law of
the land, and “fundamental fairness” is same be it at the Federal or state level]).
A State official contemplating an act that violates due process at their state level
must know the threat of readily being held accountable at the Federal level is
likely/real. A state’s system/machinery is so inclined to “protect its own,” pursuing
justice for due process violations at the state level can be near impossible.

13

CONCLUSION
Based on the foregoing, Petitioner respectfully requests that this Petition for Summary
Reversal be Granted, explaining to the Ninth Circuit Court of Appeals, and to Judge Logan
of US District Court for the District of Arizona, Phoenix Division, that a Complaint that is
in-fact against State Officials, is not a Complaint against the State...and that this issue has
long been settled, e.g., by Ex Parte Young; or Pennhurst State Sch. v. Halderman, which
cites Young in such a way as to add clarity to Young; and more.
The Ninth Circuit was well informed, if not “badgered” by information/pleadings I filed
beginning with (if not before) my Motion for Reconsideration or Alternatively En Banc
Review (Ex 14), and pleadings I filed following my Motion (Ex’s 32-38). I filed this
barrage of pleadings as an effort to make certain the Ninth could not Affirm without being
competely aware of what my Complaint was actually about, including (Ex 34):
"I. THIS RESPECTED COURT OF APPEALS CAN NO LONGER CLAIM
IGNORANCE TO THE DISTRICT COURT'S ERRANT RULING"
Or (Ex 37):
II. WHAT WILL IT TAKE FOR THIS COURT TO CORRECT ITS
“MISTAKEN” AFFIRMATION OF A CLEARLY CORRUPT DISMISSAL BY
DISTRICT COURT JUDGE LOGAN?
I have asked this Court, in recent pleadings (see Dkt No’s 32-36), question such as (e.g.,
Ex 10 here):
1.) “Has this Court yet counted the number ofdocumented criminal acts Appellees have
committed (F1)?” (pg 2 Ref 1)
2.) If yes, have Appellees yet passed the maximum number of criminal acts they are
allowed before being held accountable? Or, are they yet in the acceptable range for the
number of criminal acts our government officials are allowed to commit before held
accountable...? (pg 2 Ref 2)
3.) “Why is this Court not acting in the name ofJustice (and exposing public
corruption)?” (pg 2 Ref 3)
4.) “How much more evil is requiredfor this Court to act in name of Justice? ” (pg 2 Ref
4)

What more do I need to do to raise the profile ofAppellee’s Criminal Acts; Judge
Logan’s relationships with Appellees, and make certain this Court does not continue to
look away from Judge Logan’s corrupt dismissal? ”

14
I also pray that this respected Supreme Court will remind the Ninth Circuit and Judge
Logan that the Doctrine of Respondeat superior is still in effect in this great Country and
that 6 Arizona State AGO Officials acting in concert with one another to commit multiple
Criminal Acts is more than sufficient to create Respondeat superior liabilities for the State
(particularly as the Criminal Acts by these 6 AGO Officials were made very well known to
the Governor [e.g., Ex 40), and the State Legislature (Ex 41), but all in the Arizona
Government refused to act).
Dated: April 30, 2021
Respectfully submitted,

William “Will” A. Graven, Petitioner, In Pro Se
2700 S. Woodlands Village Blvd.
Suite 300-251
Flagstaff, AZ 86001
928-890-8825

